CREDIT CARD AGREEMENT AND DISCLOSURES
THIS IS YOUR AGREEMENT AND DISCLOSURE STATEMENT WITH LAKE MICHIGAN CREDIT UNION. PLEASE READ IT
CAREFULLY AND KEEP IT FOR YOUR RECORDS. IT SUPERSEDES ALL PRIOR AGREEMENTS AND DISCLOSURE
STATEMENTS RELATING TO YOUR ACCOUNT. YOU DO NOT HAVE TO SIGN THIS AGREEMENT. YOUR AGREEMENT TO
ALL OF THESE PROVISIONS, AS AMENDED FROM TIME TO TIME INCLUDING THE CARD ISSUED BY US, WILL BE SHOWN
BY YOUR APPLICATION FOR THE CARD, YOUR ACCEPTANCE OF THE CARD, OR YOUR USE OF THE CARD, WHICHEVER
OCCURS FIRST.
1. Definitions Used to Understand Your Agreement with Us: In this Agreement, the word "Card" means either one or more VISA
credit cards and any duplicates, renewals or substitutions we issue. The words, "you," "your," and "yours" mean all cardholders
(borrowers and co-borrowers); anyone any cardholder permits to use the Card(s); as well as any authorized user for whom an additional
Card(s) is issued to the extent of their purchases and cash advances, as well as transactions by anyone they permit to use the Card(s).
The word "cardholder" means any applicant or co-applicant to whom a Card is issued by us. The words "Credit Union," "we," "us," and
"our" mean Lake Michigan Credit Union. The words "Convenience Checks" mean one or more checks that we may send to you to
access your Credit Card Account. “Applicable Law” shall include “(i) Visa U.S.A. Inc. Bylaws, Visa U.S.A. Inc. Operating Regulations,
Visa U.S.A. Inc. Certificate of Incorporation, Visa International Bylaws, and Visa International Operating Regulations; and (ii) any and all
laws, treaties, rules, regulations, or regulatory guidance of the government of the United States, any state thereof, or any applicable
foreign government or state thereof, as the same may be amended and in effect from time to time.
2. Your Pledge of Shares and Security Interest for Your Loan Advances:
BY SIGNING AN APPLICATION, ACCEPTANCE OR AUTHORIZED USE OF ANY CREDIT CARDS, YOU GRANT AND PLEDGE A
CONSENSUAL LIEN TO US ON ALL SHARES TO SECURE PAYMENT OF YOUR OBLIGATIONS ON THIS ACCOUNT. IN
ADDITION, YOU ACKNOWLEDGE OUR STATUTORY LIEN RIGHTS UNDER THE FEDERAL CREDIT UNION ACT; YOU AGREE
THAT SUCH A LIEN IS IMPRESSED AS OF THE DATE THAT THIS ACCOUNT IS OPENED; AND YOU AGREE THAT WE CAN
APPLY THE SHARES PLEDGED AT THE TIME OF ANY DEFAULT ON THIS ACCOUNT WITHOUT FURTHER NOTICE. “Shares”
for the purpose of your pledge to secure your obligations to the Credit Union means all deposits in any share savings, share
draft, club, certificate, P.O.D., revocable trust or custodial account(s), whether jointly or individually held -- regardless of
contributions that you have on deposit now or in the future. Your pledge does not include any I.R.A., Keogh, tax escrow,
irrevocable trust or fiduciary account in which you do not have a vested ownership interest.
SECURITY AGREEMENT: “Non-Purchase-Money Security Interests” Payments on your Account are secured by any security interest
in any property securing your other obligations to the Credit Union, whether existing now or in the future, except your household goods
and your primary residence. “Purchase-Money Security Interests” You hereby grant Credit Union security interest in all property
purchased/acquired by you or any authorized user pursuant to the use of this Account, including a purchase-money security interest in
any household goods purchased/acquired with an extension of credit upon this Account. These Purchase-Money Security Interests
shall secure faithful performance of all obligations arising under this Agreement; and the Credit Union shall have all of the rights of a
secured party in accordance with Article Nine of the Uniform Commercial Code and/or other applicable law.
3. How to Use this Account: You must sign the Card in order to use it. You can purchase or lease goods and services ("Purchases")
from any merchant who honors your Card up to your maximum credit limit by presenting your Card and signing a sales slip or writing a
Convenience Check for the amount of the Purchase. You may also use the Card to obtain cash loans ("Cash Advances") up to your
maximum credit limit from financial institutions that accept the VISA credit card, and by use of preprinted Convenience Checks that the
Credit Union may issue to you. You agree not to present your Card, obtain a Cash Advance or write a Convenience Check for any
extension of credit in excess of your available Credit Limit (the difference between your outstanding balance and your maximum credit
limit) on your account. Certain purchases and cash advances require authorization prior to completion of the transaction. In some
cases, you may be asked to provide identification. If our system is not working, we may not be able to authorize a transaction, even
though you have sufficient credit available. Also, for security reasons, we may block the use of your Card in certain countries or
geographic areas. We will have no liability to you or others if any of these events occur.
You authorize us to honor any Purchase or Cash Advance you make by telephone or mail on this account. You agree that a signature
is not necessary as identification in such cases. We reserve the right to refuse to honor any request for credit, to reduce your credit limit
or terminate your account at any time using our sole discretion, based on changes in the economy, the Credit Union's financial
condition, your creditworthiness or for any other reason not prohibited by law.
4. ATM Access: If you have received a personal identification number (PIN), you may use your Card and PIN to obtain Cash Advances
at any Automatic Teller Machine ("ATM") that accepts your Card. Your PIN is confidential and should not be disclosed to anyone. You
agree not to write your PIN on your Card, you will not keep your Card and PIN together, and you will not provide your PIN to anyone
who is not an authorized user. Except as otherwise provided in this agreement, advances through ATM access will be treated as Cash
Advances under this Agreement. Advances at authorized ATM's are limited to a total of $500.00 during any 24-hour period. The total

Page 1 of 9
Terms are accurate as of 01/23/2018

of all cash advances on your VISA Account and any withdrawals from your other accounts through an ATM in any 24-hour period may
be combined for the purpose of this limitation. Although we do not charge a fee for this service, others may. Owners of ATMs that we
do not own may charge fees in addition to any fees disclosed in this Agreement. This is not a fee charged by your Credit
Union; however, any such fee will be added to your account. The party charging the fee is required to provide appropriate
disclosures to you with regard to any such fees.
5. Your Maximum Credit Limit: Your Maximum Credit Limit will appear on the folder in which you receive your Card and on your
monthly statement. At our discretion, we may change your credit limit at any time, and may provide separate limits for purchases and for
cash advances. We will notify you if we do, either by mail or through your monthly billing statement. You may request a change to your
credit limit by contacting the Credit Union by telephone or mail. Your continued use of the card will show your agreement to any such
increase. If you object to an increase in your credit limit, you must notify Credit Union in writing. Upon receipt of such notice, your credit
limit will be reduced to its prior limit or the limit requested; however, you will be responsible to pay any amounts by which you have
exceeded the reduced limit. You agree to pay any amounts you owe that exceed your maximum credit balance upon demand. You
agree we are not obligated to extend to you credit for any amount that would cause your outstanding balance to exceed your Maximum
Credit Limit, or for any amount if your outstanding balance already exceeds your Maximum Credit Limit. Any increase in your Maximum
Credit Limit requested by you will require you to make a written application for our approval. In assessing your credit limit under the
provisions in this Section (either at our discretion or upon request): (a) we may and you authorize us to review your credit history,
including consumer credit reports; (b) you authorize us to have this review made by third parties to determine whether you meet the
criteria we have set for such an increase; and (c) this process shall not be pre-screening under the Fair Credit Reporting Act or other
applicable laws or regulations based on our existing relationship and this Agreement.
Credit balances in excess of $1.00 will be refunded to you three months after collection as provided herein by a credit deposited to your
credit union account or by mailing a check to the address to which statements are provided payable to the order of any cardholder. You
agree that the Maximum Credit Limit will at no time exceed the agreed upon amount, and that any credit balance will not be available or
increase the Maximum Credit Limit available for new purchases or cash advances during any billing cycle.
6. Limits for ATM and Over-the-Counter Cash Advances can be determined by contacting the Credit Union’s VISA Department as
set forth at the end of this Agreement.
7. General Terms Governing Your Payments: You will be jointly and severally liable and agree to pay the Credit Union for all charges
(purchases, cash advances, finance charges, and other charges added to your Account under the terms of this or any other
agreements with us) extended to you or anyone else using any Card issued for your account, unless the use of such Card is by a
person other than you, who does not have actual, implied or apparent authority for such use and from which you receive no benefit.
Authority includes, but is not limited to, any authorized users permitting another person to use any Card(s). Further, all user’s are
obligated to us for all charges they make, authorize or permit. The Credit Union can accept late or partial payments as well as payments
that are marked with "paid in full" or other restrictive endorsements, without losing any of our rights under this Agreement. You must pay
the Credit Union in U.S. dollars drawn on funds on deposit in the United States. If you make payment with other currencies or from an
institution domiciled outside the United States, then your payment will not be credited until the funds have been collected by us in U.S.
dollars. The Credit Union will determine the method of applying payments and credits to your account, which will in all respect comply
with any specific requirements of applicable laws.
Unless otherwise required by specifically applicable laws, for payments received by mail by 5:00 PM EST, you will receive credit that
day; and for payments made in any other manner, including in person, your account will be credited the business day payment is
received.
To protect you and us, the Credit Union, in its sole discretion, may place a temporary freeze on all or part of the credit
available to you for new purchases or cash advances under this agreement any time the Credit Union receives a large
payment ($1,000.00 or more), by a method other than cash, certified funds or electronic transfer. In such cases, the Credit
Union may freeze your credit line until payment is actually collected by us.
Maximum Fees during the First Year: During the first year after the credit card is opened the total fees charged to your credit card
will not exceed 25% of the credit limit in effect when the account is opened. This limit does not apply to late payment fees, over-limit
fees or returned payment fees or other fees the consumer is not required to pay with respect to the account such as an expedited
payment for making a payment by phone. However, the limit does apply to cash advance fees, balance transfer fees and foreign
transaction fees.
8. Minimum Payment Due: You can pay off your account balance in full each month or you can pay in monthly installments. If you do
not pay your balance in full, you agree to pay at least a minimum payment of 2% of your New Balance (rounded to the nearest whole
dollar) or $20.00, whichever is greater at the end of each statement period. If the New Balance shown on your periodic statement is
$20.00 or less, you agree to pay this amount. Unless the Credit Union takes other action as a result of a default under this Agreement,
the Minimum Payment Due will also include any amount that is past due and any amount by which your new balance exceeds your
credit limit. Payments and credits will be applied first to pay billed but unpaid finance charges; annual fee (if applicable); late charges,
and other fees or charges provided for herein; and next to unpaid cash advances; and then to your unpaid purchase balance. You must

Page 2 of 9
Terms are accurate as of 01/23/2018

pay at least the minimum payment each month, but you may pay more than that amount at any time without a penalty. The sooner you
pay your new balance, the less you will have to pay in finance charges. The "Payment Due Date" will be shown on your periodic
statement.
Grace Period for Repayment of the Balance for Purchases: Grace period for repayment of the balance for purchases will be at a
minimum 25 days from the close of the billing cycle. See your statement for billing cycle date.
9. Returns and Adjustments Regarding Your Transaction with Merchants: Merchants and others who honor your Card may give
credit for returns or adjustments, and they will do so by sending the Credit Union a credit slip which will be posted to your Account. If
your credits and payments exceed what you owe the Credit Union, the amount will be applied against future purchases and cash
advances. If the credit balance amount is $1.00 or more, it will be refunded upon your written request or automatically after three
months.
10. Additional Charges for Transactions in a Foreign Currency and International Transactions. Currency Conversion Fee: If
you effect or authorize a transaction with your access device in a currency other than US Dollars, VISA will convert the charge into a US
Dollar amount. The VISA currency conversion procedure includes use of either a government mandated exchange rate, or a wholesale
exchange rate selected by VISA, as applicable. The exchange rate VISA uses will be a rate in effect on the day the transaction is
processed. This rate may differ from the rate in effect on the date of the purchase or the date the transaction was posted to your
account. A Currency Conversion Fee of up to 2% will be applied to transactions that are converted from foreign currencies to U.S.
dollars. International Service Assessment Fee: In addition, VISA charges us an International Service Assessment Fee up to 1% on
each transaction on all international transactions regardless of whether there is a currency conversion. For purposes of this Section,
“international transaction” shall include both (a) transactions initiated in a foreign country which are subsequently settled in the United
States, and (b) transactions initiated in the United States but which are ultimately settled in a country outside of the United States. The
Credit Union will assess these fees to you to reimburse it for the fee it is required to pay for each of your transactions subject to these
terms. The International transaction fee will be shown separately on your periodic billing statement. The Currency Conversion Fee, if it
applies to the transaction, will be included in the transaction amount posted on your statement.
11. Finance Charges: WILL BE IMPOSED IN THE FOLLOWING MANNER AND WILL BE IN AMOUNTS NOT IN EXCESS OF
THOSE PERMITTED BY LAW: The ANNUAL PERCENTAGE RATE (APR) will be calculated by adding a margin to the Prime Rate as
published in the “Money Rates” section of the Wall Street Journal on the 1st day of each month. The credit card rates will be changed
for your Visa loan on the 1st day of the month following the rate change, and reflect on the following month’s statement according to the
index. Each Credit Card product is set based on a specific margin as defined in the addendum.
(a) PURCHASES: (1) No finance charge will be imposed during the next billing cycle (defined as the time interval between regular
monthly billing statement dates) if you pay the entire new balance shown on the current periodic statement and we receive your
payment on or before the payment due date shown on the statement. (2) In all other cases, a finance charge will be imposed based on
the average daily balance of all purchases and debit adjustments, hereafter referred to as purchases. The average daily balance is the
sum of all outstanding purchases, which is determined by including new purchases and deducting payments or credits and excluding
any unpaid finance charge for your Account on each day of the billing cycle divided by the number of days in the billing cycle. A
purchase appearing on the periodic statement is considered a part of the outstanding balance from the date of posting. (3) The amount
of the finance charge is calculated by multiplying the average daily balance for purchases by the monthly periodic rate. The monthly
periodic rate is the yearly interest rate divided by 12.
(b) CASH ADVANCES: (1) Finance charges accrue on all cash advance amounts from the date charged to your Account and continue
so long as such amounts remain outstanding. (2) A finance charge will be imposed on the average daily balance of cash advances,
which is the sum of the cash advances (determined by including new cash advances and deducting any payments or credits and
excluding any unpaid finance charge) outstanding each day during the billing cycle, divided by the number of days in the billing cycle. A
cash advance appearing on the periodic statement is considered a part of the outstanding balance from the date of posting. (3) The
amount of finance charge is calculated by multiplying the average daily balance for cash advances by the monthly periodic rate.
12. “Promotional Rate” Finance Charges: From time to time and in our sole discretion we may offer a special rate applicable to
certain transactions such as particular purchases (as defined by us), balance transfers, cash advances or purchases made by using
Convenience Checks. Applicable terms and conditions will be disclosed at the time any such promotion is offered, and are incorporated
into this Agreement by reference. The promotional rate will apply only to the transactions and for the period of time set forth in any such
offer from us. Existing balances and new purchases or advances not expressly subject to any such promotion will remain governed by
the terms and conditions of this Agreement. In addition, the terms and conditions of this Agreement will govern your obligations
regarding any unpaid balance or transactions that are made subject to any such promotional offer, that are not fully paid within the time
period set forth in such promotional offer.
13. Interest Rate Adjustment (Default Rate): The Credit Union will adjust the interest rate on your account whenever your account is
60 days past due. We will change your interest rate to a fixed rate of 18% ANNUAL PERCENTAGE RATE which is a monthly periodic
rate of 1.50%, on the first day of the billing cycle following the cycle that was 60 days past due. After six (6) consecutive billing cycles of
your account being paid pursuant to the terms of your agreements with the Credit Union, we will change the interest rate to the rate that

Page 3 of 9
Terms are accurate as of 01/23/2018

is then applicable to your account, which will become effective on the first day of the billing cycle following the sixth consecutive billing
cycle.
14. Monthly Statement: We will send you a monthly billing statement whenever there is activity on your account. Your monthly
statement will show an itemized list of current charges (Purchases and Cash Advances) and Convenience Check transactions to your
account, your new balance, any Finance Charges, the minimum payment due, and the payment due date. In addition, it will show your
current credit limit, payments, and credits, a summary showing your Purchases and Cash Advances, the merchant, electronic terminal
or financial institution at which transactions were made, as well as other information concerning your account. Sales, Cash Advance,
credit or other slips cannot be returned with any statement. You will retain a copy of such slip furnished at the time of the transaction in
order to verify your monthly statement. E-Statements: If provided electronically, you will be sent a notice via e-mail that will direct you to
a site we maintain or cause to be maintained where you may access, review, print and otherwise copy / download your periodic
statements using procedures that we authorize. E-mails from us will be sent to the e-mail address provided by any owner.
15. Additional Benefits/Card Enhancements: The Credit Union may from time to time offer additional services to your Account, such
as travel accident insurance, purchase rewards or rebates at no additional cost to you. You understand that the Credit Union is not
obligated to continue or to offer such services and may withdraw or change them at any time. If these benefits are withdrawn prior to
any accrued use by you, the Credit Union will have no obligation to provide the benefit or enhancement, or any other compensation or
consideration.
16. Merchant Disputes: The Credit Union is not responsible for the refusal of my merchant or financial institution to honor your Card
except as set forth in the Special Rules for Credit Card Purchases set forth at the end of this Agreement.
17. Skip Payment Option: At our option, we may offer you the opportunity to not make (“skip”) a minimum payment during certain
designated billing cycles (“skip payment period”). If you do not make your minimum payments as provided in this Agreement, during
such designated billing cycles, you understand that we will continue to apply finance charges to your account. Beginning with the billing
cycle following an allowed skip payment period, all other provisions of this Agreement will apply. We have no obligation to accept your
application for any skip payment period offered, and you authorize us to investigate your creditworthiness including obtaining consumer
credit reports.
18. What Happens When You Exceed Your Credit Limit: If you opt-in pursuant to applicable laws governing over-the-limit fees
whereby you agree that the Credit Union will charge your account an over the credit limit fee of $25 for each billing period in which your
new balance exceeds your credit limit unless expressly limited pursuant to applicable laws. This fee may be added to your account
balance, or collected from you on demand. You agree that over-limit charges are imposed only in the case of a breach of this
Agreement, and that such activity constitutes an event of default under the terms and conditions of this agreement; and that such a
charge is not anticipated by any party to this Agreement to constitute a part of any Finance Charge, Monthly Periodic Rate or APR.
19. Late Payment Fee: If your minimum payment is not received within eight (8) days of your payment due date, the Credit Union will
charge your account a late payment fee of $15.00 if your balance is below $1,000 or $25 if your balance is $1,000 or greater.
20. Returned Payment or Insufficient Funds Fee: Credit Union will charge your account a $25.00 fee if your payment by any method,
including check, electronic transfer, home banking transaction or otherwise, is not honored, collected by us, or if we must return it to you
because it cannot be processed for any reason. This fee will be added to your account balance.
21. Charge for Statement Copies, Research and Card Replacement: Credit Union will charge a fee of $2.50 per monthly statement
copy requested. However, no charge will be imposed in connection with any actual or asserted billing error. We will charge a $5.00 fee
to replace a lost card.
22. Cash Advance Fee: Credit Union will charge a cash advance fee (Finance Charge) equal to 3.00% of each such advance.
23. Convenience Checks: Any individual cardholder or authorized user can use your Convenience Checks to purchase goods and
services or to obtain cash up to the amount of your available credit limit unless that amount will cause you to exceed your credit limit.
Credit Union will treat Convenience Checks as Cash Advances and will charge them against your credit limit. Credit Union may decline
to honor a Convenience Check if you are over your credit limit, you are in default, your account privileges have been cancelled, your
Card has expired, or your account is not activated. If we decline to honor a Convenience check, Credit Union will charge you a fee of
up to $25.00, which the Credit Union will add to your account balance. Convenience checks may be used only by the person whose
name is printed on them. You may not use Convenience Checks to pay any amount which you owe the Credit Union under this or any
other credit agreement with the Credit Union. Credit Union will not certify any Convenience Checks, nor will the Credit Union return paid
Convenience Checks to you. It is in the Credit Union’s sole discretion to issue Convenience Checks to any member. STOPPING
PAYMENT OF A CONVENIENCE CHECK. You may ask us to stop payment of a convenience check by calling us at (800) 242-9790.
Your stop payment request will only be effective for 14 days from the date of your call unless within the 14 days you confirm it in writing,
signed by you, describing with certainty the convenience check to be stopped and sent to us at LMCU, PO Box 2848, Grand Rapids, MI
49501. Even if you do that, we may disregard your stop payment request starting six months after we receive it unless you renew that
request in writing to us before the end of that six month period. We will use commercially reasonable efforts to stop payment on our

Page 4 of 9
Terms are accurate as of 01/23/2018

convenience check. However, you agree that convenience checks are credit transactions; and that we will not be responsible in any
way if the convenience check that you have requested us to stop payment on is cashed or otherwise presented for payment and, using
commercially reasonable efforts, we are unable to stop payment. You agree that the UCC does not apply to a convenience check.
24. Your Responsibility and Liability for Unauthorized Use and Lost or Stolen Cards or Convenience Checks: If your Card or
Convenience Checks are lost or stolen, or if you are afraid someone used or may use them without your permission, you must notify the
Credit Union at once by calling 1-800-242-9790. If notice is given orally, you will promptly confirm it in writing. The Credit Union may
require you to provide us certain information in writing to help us investigate any unauthorized use. Further, you agree to cooperate and
assist us or any government or law enforcement agent or agency in investigating, collecting or pursuing any other rights (civil and
criminal) relating to any unauthorized use. In this regard, you agree to file an appropriate police report when asked to do so. Do not
use the Card or the Convenience Checks after you have notified the Credit Union, even if you find them or have them returned to you.
You are liable for all transactions that you authorize. No Liability: You will have no liability for unauthorized use of your Card,
Convenience Checks or other Access Devices for non-ATM transactions made over the VISA Network if the following conditions are
met: (1)You have not been negligent; and (2) You have not committed, participated in or conspired to commit any fraudulent act or
scheme involving the use of your VISA credit card account. Limited Liability: For transactions on other networks or ATM transactions,
you may be liable for unauthorized transactions using your Card, Convenience Checks or other Access Devices that occur before we
are notified. However, your liability for unauthorized use on networks other than VISA will not exceed $50.00. In any case, you will not
be liable for any unauthorized use after notifying us of the loss, theft or unauthorized use of your Card, Convenience Checks or other
Access Devices. Please refer to page 8 in the Billing Rights section of this agreement for additional rights and responsibilities.
25. Our Liability for Failure to Complete Transactions: If we do not complete a transaction pursuant to any request, and/or in the
correct amount, we may be liable for your losses or damages. However, there are some exceptions. We will not be liable, for instance:










if through no fault of ours, you do not have adequate funds available on your Card to complete the transfer;
if circumstances beyond our control (such as fire, flood, terrorist attack, national emergency, or computer or communication failure)
prevent the completion of the transaction, despite reasonable precautions we have taken;
if access to your Card has been blocked after you reported your Card lost or stolen;
if there is a hold on your Card for any reason;
if your funds are subject to legal process or other encumbrance restricting their use;
if your transfer authorization terminates by operation of law;
if a computer system or mobile device was not working properly and you knew about the problem when you initiated the
transaction;
if we have reason to believe that the requested transaction is not authorized; or
as otherwise provided in this Agreement.

26. What the Credit Union may do if You do not meet You Obligations under this Agreement (“Default”): You will be in default if:
(a) you fail to pay the Minimum Payment Due by the Payment Due Date; (b) the Credit Union, in its sole discretion, feels insecure (For
example: Our good faith belief that your ability to pay your account is impaired; use of your account in any manner or in any way that
may expose the Credit Union to a risk of loss; etc.); (c) your ability to repay is materially reduced by a change in your employment, by an
increase in your obligations, by bankruptcy or insolvency proceedings involving you, by your death, or (for community property state
residents only) by a change in marital status or domicile; (d) you exceed your credit limit without our permission; (e) you have made a
false or misleading statement to us in your application or otherwise; (f) you are in default under any other agreement with us; (g) if you
use or authorize the use of any Card(s) to make or facilitate any illegal transaction; or (h) you fail to perform any of your other
obligations under the terms of this Agreement as it may be amended from time to time. Upon default we may close your Account to
future purchases and advances and, to the extent not prohibited by Governing Law, demand immediate payment of your entire Account
balance, after giving you any notice and opportunity to cure the default if required by applicable law. The Credit Union's sole obligation
hereunder with regard to determining and declaring an event of default is the exercise of "good faith," based on its subjective
understanding of applicable facts. We shall also have the right to close your account and terminate access privileges where your
account is inactive for such periods of time as we may from time-to-time determine to be appropriate for protecting both our and your
interests.
27. When You may be Responsible for Legal and Other Costs: You agree to pay all costs incurred by the Credit Union in collecting
any amounts you owe or in enforcing or protecting the Credit Union's rights under this Agreement, including attorneys' fees, and also
those costs, expenses and attorneys' fees incurred in any appellate, bankruptcy and post-judgment proceedings, except as limited or
prohibited by applicable law.
28. Updating and Disclosing Financial Information: We may report your performance under this Agreement to credit reporting
agencies and secure follow-up credit reports on you for any legitimate business reason, including if you fail to make your minimum
payments on time. We can reinvestigate and reevaluate any information you provide on your VISA Application at any time, and in the
course of doing so, we may ask you to provide additional information, request credit bureau reports and/or otherwise verify your current
credit standing. Access to Account Information: You agree that all borrowers and authorized users will have access to information

Page 5 of 9
Terms are accurate as of 01/23/2018

regarding transactions on your account, including but not limited to purchases and cash advances, account balances, account history,
payments and other information relating to or arising with regard to this account or any transaction.
29. Change of Name, Address or Employment: You will notify immediately the Credit Union in writing if your name, home address, or
employment changes.
30. Correcting the Credit Union's Credit Report: If you think the Credit Union reported erroneous information about you to a credit
reporting agency, call the Credit Union at the telephone number listed on your monthly billing statement. Credit Union will promptly
investigate the matter. Credit Union will contact each credit reporting agency whose records may reflect an error. Credit Union will
require them to correct your report if its investigation decides that you were correct. If Credit Union disagrees with you after the
investigation, Credit Union will advise you, in writing or by phone, and instruct you how to submit to those agencies a statement of your
position that will become a part of your credit record with them. The instructions will include the name, address, and phone number of
each such agency, along with other pertinent information.
31. When Your Account may be Closed and Effects of Account Closing: Any individual cardholder without the consent of other
cardholders may close your Account at any time by notifying us in writing as indicated in this Agreement. Credit Union may close your
account or suspend your Card privileges or Convenience Checks at any time without prior notice. Credit Union may also reissue a
different Card or different checks at any time. You must return the Card or the Convenience Checks to the Credit Union upon request.
You agree that the Card and all Convenience Checks remain the property of Credit Union. Each Card we issue will have an expiration
date. Upon expiration of your Card your account will automatically terminate; or the Credit Union, in its sole discretion, may extend your
Agreement and issue a new card with a new expiration date. If your account is closed, expires or your credit privileges are terminated
or suspended, you will remain responsible for paying all amounts you owe us according to the terms of this Agreement. Without limiting
the foregoing, the Credit Union has the right to terminate your line of credit or any part of the services provided pursuant to this
Agreement and to demand the return of all cards, access checks and other access devices if the Credit Union, in its sole discretion,
feels that it is insecure for any reason whatsoever; including but not limited to mismanagement of your account, failing to safeguard any
access device, creation of any credit balances by you that may increase the risk of loss or exposure of the Credit Union or failing to
cooperate with the Credit Union or others with regard to any claim of unauthorized use or any other defense to payment under
applicable law.
32. Changing This Agreement: The Credit Union may change the terms of this Agreement, including the Annual Percentage Rate, at
any time. Except where limited by applicable law, the new terms, including, but not limited to, increasing the finance charge or the way
the Credit Union calculates finance charges, late charges, and the minimum payment due, will apply both to new purchases and cash
advances and to the existing outstanding balance of your account as of the day of the change. In accordance with applicable law, the
Credit Union will notify you of any increased charge or change by writing to you at the most recent address shown for you on the Credit
Union's records.
33. The Effect of any Delay in Enforcement or Waiver: The Credit Union may delay or waive enforcement of any of the provisions of
this Agreement, including any agreement to make timely payments, without losing its right to enforce the same vision later or any other
provisions of this Agreement. You waive the right to receive notice of any waiver or delay or presentment, demand, protest or dishonor.
You also waive any applicable statute of limitations to the full extent permitted by law and any right you may otherwise have to require
the Credit Union to proceed against any person before suing you to collect. You understand that the Credit Union will not be liable for a
merchant's or other parties' refusal to honor your Card whether due to an error by the Credit Union, the merchant, the Credit Union's
authorized agent, or other third party.
34. Additional Terms of Agreement: To the extent not prohibited by applicable law, the terms, interpretation and enforcement of any
claim or dispute arising under this Agreement, as well as all parties’ rights and duties, will be governed by Michigan State law regardless
where you may reside or use your account. Further, this Agreement is the contract which governs all transactions on your Account
even though sales, cash advances, credit or other slips may contain different terms.
You may not transfer or assign your account or Card to any other person. The Credit Union may assign or transfer this Account, your
Account balance, or this Agreement to another person, who will have all of our rights hereunder. This Agreement is binding on your
heirs and legal representatives. If there are joint obligors or authorized users for this credit plan, each of you will have the right to use
the Account to obtain loans pursuant to the terms hereof. Any one obligor’s elections, transactions and directions to the Credit Union
shall be binding upon all obligors. Each of you will be liable for all obligations owing on the Account whether borrowed by you or
otherwise and whether within or beyond the credit limit. Your liability will be joint and several. Either party has the right to cancel this
Agreement. Further each of you is responsible for all amounts borrowed by any authorized user(s). Authorized users and other users
may also be required to repay the amount owed for charges they make; however, you remain, at all times, primarily responsible for all
amounts owed. All Cards, billing statements and notices will be mailed or delivered to the address given on the application for either
applicant unless you direct otherwise in writing. If any law or judicial ruling makes any part, provision, sentence or section of this
Agreement unenforceable, the remainder will continue in full force and effect.

Page 6 of 9
Terms are accurate as of 01/23/2018

35. Credit Insurance: If you elect insurance, as set forth in your application, then the charges will be added to your Account balance
on each billing cycle, if your insurance application is approved. Credit insurance is voluntary and not required to obtain a credit card
account with us. You have the right to terminate this insurance at any time by notifying us in writing.
36. Convenience Payment Option: If you requested the Convenient Payment Option in your application, all Minimum Payments due
will automatically be deducted from your designated account on your Payment Due Date. If your designated account does not contain
sufficient funds, no automatic deduction will be made; we will bill you for the Minimum Payment Due; and your account will be charged a
$25.00 insufficient funds fee and you will be responsible for making the payment by some other means.
37. Compliance with Applicable Laws and Prohibition of Illegal Transactions: You warrant and agree that you will at all times
comply with all Applicable Laws; and that your card and services are at all times subject to Applicable Laws. Further, you agree and
warrant that your Credit Card, other access device or any related account will not be used to make or facilitate any illegal transaction(s)
as determined by applicable law; and that any such use, including any such authorized use, will constitute an event of default under this
Agreement. Certain federal and/or state laws or Card Service Providers’ Rules may limit or prohibit certain transactions such as (but
not limited to) those coded as possible gambling transactions. The Credit Union may decline to accept, process or pay any transaction
that we believe to be illegal or unenforceable (regarding your obligation to pay us or otherwise) under applicable law; or which is
otherwise limited or prohibited, including but not limited to any transaction involving or relating to any gambling activity. Such prohibition
or limitations may affect some otherwise proper or allowable transactions such as charges incurred at a hotel-casino. You understand
and agree such limitations/prohibitions are not within the Credit Union’s control and that the Credit Union will not have any liability,
responsibility or culpability whatsoever for any such use by you or any authorized user(s); or for declining to accept, process, or pay any
such transaction. You further agree to indemnify and hold the Credit Union harmless from any suits, liability, damages or adverse
action of any kind that results directly or indirectly from any such use of your account and/or access devices.
38. LMCU Rewards: 1) Points expire after five years. Points will expire on the last day of the month, five (5) years after the date of
issuance. 2) Points are not earned during any period in which your account is in default. 3) You will earn 1000 points at the time of
your first purchase. 4) For Visa Platinum Max Rewards and Visa Signature Max Rewards, points will be earned for purchases of
gasoline at the rate of three points per $1.00 for the first $500.00 of such purchases, and then one point for each subsequent $1.00
spent on gasoline purchases. Points will be earned for purchases of groceries at the rate of two points per $1.00 of such purchases. 5)
For Visa Signature Max Rewards, points will be earned for purchases at restaurants at the rate of two points per $1.00 of such
purchases. 6) When redeeming for Cash, each Point is equal to $0.01 in redeemable value and is redeemable in 5000 point
increments. You may redeem them for cash by calling (800) 242-9790, ext 9915 or by submitting a redemption request through the
LMCU Rewards Website.
Full details on rewards programs are available online. Enter the web address shown for the applicable program, scroll down the page
and choose “View Sample Rewards”, and click the link to the “Program Terms and Conditions” for specific details.
Max Rewards and Visa Signature Max Rewards: https://www.dreampoints.com/lmcumax/
Travel Plus: https://www.dreampoints.com/lmcutravel/
Loan Rebate: https://www.dreampoints.com/lmculoan/
Commercial: https://www.dreampoints.com/lmcucommercial/

39. Loan Rebate Rewards: 1) Rebates Points are earned for purchases at the rate of one (1) point per $1.00 of net purchases. Net
purchases, equals the total of all purchases minus any returns posted to your account during a billing period. Rebates are calculated
and added to your account within two business days of the transaction posting to the card account. Rebates are not earned for finance
charges, fees, cash advances, balance transfers, convenience checks, or foreign currency conversion charges posted to your account.
2) Rebates are not earned during any billing period in which your account is in default. 3) Rebates are redeemable in $25 increments.
Redemptions will be posted as a payment to your LMCU Mortgage, Credit Card, or Consumer Loan. You may redeem your rebates for
a loan payment by calling (800) 242-9790, ext. 9915 or by submitting a redemption request through the Rewards website. 4) Rebates
expire after five years. Points will expire on the last day of the month, five (5) years after the date of issuance. 5) Rebates are forfeited
immediately upon closure of account. 6) LMCU reserves the right to modify or cancel the Loan Rebate Rewards program at any time.

Page 7 of 9
Terms are accurate as of 01/23/2018

YOUR BILLING RIGHTS STATEMENT
KEEP THIS NOTICE FOR FUTURE USE
This Notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.
NOTIFY US IN CASE OF ERRORS OR QUESTIONS ABOUT YOUR STATEMENT / BILLING AT:
LMCU
Post Office Box 2848
Grand Rapids, MI 49501
If you think your statement is wrong, or if you need more information about a transaction on your statement, you must write to us on a
separate sheet of paper to the address listed in your periodic statement. You should write to us as soon as possible. We must hear from
you no later than 60 days after we sent you the first statement on which the error or problem appeared. You can telephone us, but doing
so will not preserve your rights. In your letter, you should give us the following information:






Your name and account number.
The dollar amount of the suspected error.
Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are not sure about.

If you have authorized us to pay your credit card bill automatically from your savings or checking account, you can stop payment on any
amount you think is wrong. To stop the payment, your letter must reach us 3 business days before the automatic payment is scheduled
to occur.
YOUR RIGHTS AND OUR RESPONSIBILITIES AFTER WE RECEIVE YOUR WRITTEN NOTICE:
We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90 days, we must either correct the
error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as delinquent. We can continue to bill you
for the amount you question, including finance charges, and we can apply any unpaid amount against your credit limit. You do not have
to pay any questioned amount while we are investigating, but you are still obligated to pay the parts of the bill that are not in question.
If we find that we made a mistake on your statement, you will not have to pay the finance charges related to any questioned amount. If
we didn’t make a mistake, you may have to pay finance charges, and you will have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of the amount you owe us and the date that it is due.
If you fail to pay the amount we think you owe us, we may report you as delinquent. However, if our explanation does not satisfy you
and you write us within 10 days telling us that you still refuse to pay, we must tell anyone we report you to that you have a question
about your statement. And, we must tell you the name of anyone we reported you to. We must tell anyone we report you to that the
matter has been settled between you and us when it finally is. If we don’t follow these rules, we can’t collect the first $50.00 of the
questioned amount, even if the statement was correct.
SPECIAL RULE FOR CREDIT CARD PURCHASES:
If you have a problem with the quality of property or services that you purchased with a credit card and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the property or services. There
are two limitations on this right:
1.
2.

You must have made the purchases in your home state or, if not within your home state, within 100 miles of your current mailing
address; and
The purchase must have been more than $50.00.

These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement for the property or services.
If you feel that you need Counseling or Debt Management services, please contact Consumer Credit Counseling Service toll free at 1800-251-2227 or visit them on the web at www.cccsinc.org. You may also visit www.frbatlanta.org for a list of Counseling and Debt
Management Services.

Page 8 of 9
Terms are accurate as of 01/23/2018

CONTACT INFORMATION
Lake Michigan Credit Union VISA Department:
PO Box 2848
Grand Rapids, MI 49501-2848
Toll Free 1-800-242-9790
To Report a Lost or Stolen Card
Call: 1-800-242-9790
Direct All Reports, Requests and Inquiries to: (SEND WRITTEN NOTICE)
P.O. Box 2848
Grand Rapids, MI 49501-2848
(616) 242-9790
1-800-242-9790

Page 9 of 9
Terms are accurate as of 01/23/2018

